                                                    ~ SEC&
                                                   C;     ~
                                                 !;~~~
                                                  ?/1"uSA
                                                 ~      IIIIIII ~.t
                                                     T"IvIS~

                                     SOOAL             SECURITY

                                      Office of the Inspector General
MEMORANDUM
Date:   September     ZO, 2001                                                          ReferTo: ICN   3l263~23-221

        Larry G. Massanari
To:     Acting Commissioner

          of Social   Security

From:   Inspector General


Subject:Audit of the Social Security Administration's       Fiscal Year 2000 Annual Performance
        Report (A-02-01-11008)


        The attached final report presents the results of our audit. Our objective was to
        determine compliance with the Government Performance and Results Act and assess
        the Fiscal Year 2000 Annual Performance Report as a document that describes in a
        meaningful way the accomplishments of the Social Security Administration.

         Please comment within 60 days from the date of this memorandum on corrective action
         taken or planned on each recommendation. If you wish to discuss the final report,
         please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
         General for Audit, at (410) 965-9700.




                                                                      t/James   G. Huse, Jr.

         Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


            AUDIT OF THE

 SOCIAL SECURITY ADMINISTRATION’S

          FISCAL YEAR 2000

   ANNUAL PERFORMANCE REPORT



   September 2001    A-02-01-11008





 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE

The objective of the audit was to determine compliance with the Government
Performance and Results Act (GPRA) and assess the Fiscal Year (FY) 2000 Annual
Performance Report (APR) as a document that describes in a meaningful way the
accomplishments of the Social Security Administration (SSA). This audit was initiated
as part of the Office of the Inspector General's (OIG) on-going evaluation of GPRA
implementation, and in response to congressional interest in GPRA.

BACKGROUND

GPRA of 1993 established a framework through which Federal agencies are required to
set goals, measure performance, and report on the extent to which the goals were met.
To accomplish this, agencies are required to prepare 5-year strategic plans, annual
performance plans (APP), and annual performance reports (APR).

The strategic plan includes a comprehensive mission statement, identifies general goals
and objectives, describes how the agency intends to achieve those goals and identifies
critical external factors that could affect achievement of strategic goals and objectives.
The strategic plan is the starting point for setting annual goals. The APP provides the
direct link between the strategic goals and agency performance. The APP identifies
(1) the annual performance goals the agency will use to gauge progress toward
accomplishing its strategic goals and (2) performance measures to be used to assess
annual progress. The APR, due by March 31 of each year, compares an agency’s
performance with the goals established in its APP, evaluates its goals for the current
year, in light of the prior year’s performance, and summarizes the results of program
evaluations completed.

SSA was a pilot agency to develop APPs and APRs prior to full implementation of
GPRA in March 2000. SSA began reporting its accomplishments as part of the
agency’s Accountability Report in FY 1995. SSA submitted its first strategic plan under
GPRA, “Keeping the Promise,” in September 1997, and released its second strategic
plan, “Mastering the Challenge,” for FY’s 2000 through 2005 in September 2000. SSA’s
first APP, which defined performance indicators and goals for FY 1999, was completed
in February 1998. SSA released its FY 2000 and 2001 APPs in February 1999 and
February 2000, respectively.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                        i
RESULTS OF REVIEW

SSA’s FY 2000 APR continues to demonstrate a strong commitment to GPRA’s
objectives and complies with the reporting requirements. The APR tracks performance
against established goals and generally offers a rationale for unmet goals and the
strategies needed to attain them. Recognizing the evolving implementation of GPRA,
we believe that opportunities exist to provide an even more meaningful assessment of
SSA’s performance. These opportunities include more comprehensive and accurate
reporting of overall performance, clearly discussing performance for each measure, and
discussing the effect of unmet measures upon strategic goals. Further, the extent to
which the APR provides meaningful performance information depends upon the
measures established in the APP. In response to recommendations made in previous
OIG and U.S. General Accounting Office (GAO) reports, SSA has taken action to
improve its FY 2001 and 2002 APP to include more outcome-based measures, as well
as goals for measurable management challenges. These actions, and the issues raised
in this report, should translate into more informative future APRs.

CONCLUSION AND RECOMMENDATIONS
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
goals. SSA’s FY 2000 APR displays a firm commitment by SSA management to
comply with GPRA, and provide Congress and the public an objective accounting of
SSA performance. GPRA implementation will continue to be an evolutionary process
as agencies continue developing outcome-based measures, and enhance the systems
and processes that produce credible performance data. The FY 2000 APR reflects
certain weaknesses in this implementation that have subsequently been addressed by
SSA through strengthened annual performance plans. To enhance the value of future
APRs, we recommend that SSA:

•   Consistently and clearly summarize overall performance.

•	 Provide a clear and informative discussion for each measure in order to allow a
   complete assessment of the extent performance met established goals.

•   Discuss the effect of unmet annual performance goals upon strategic goals.

AGENCY COMMENTS

SSA agreed in principle with the three recommendations we made. SSA noted that it
will continue to strive to enhance the discussion in the APR of actual performance and
its ramifications on goal attainment and future strategies. The full text of SSA’s
comments is included in Appendix A.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                        ii
OIG RESPONSE

We are pleased that SSA agreed with our recommendations and believe that
implementation of the recommendations will lead to an APR which is a more meaningful
document by which SSA’s performance can be assessed.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                  iii
                                                            Table of Contents

                                                                                                                    Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

    APR Discloses That Many of SSA’s FY 2000 Goals Were Met ........................ 4

    Opportunities Exist for More Meaningful Reporting .......................................... 5

    •	 More Comprehensive and Accurate Reporting of Overall Performance
       Possible ....................................................................................................... 5

    •    More Specific Information on Performance Needed .................................... 6

    •    Need for Overall Assessment of Performance upon Strategic Goals .......... 8

    Improvements in the FY 2001 APP and Draft FY 2002 APP Should Result in
     More Meaningful Reporting in Future APRs ..................................................... 8

CONCLUSION AND RECOMMENDATIONS ...................................................... 10

APPENDICES

APPENDIX A - Agency Comments

APPENDIX B - OIG Assessment of SSA's Progress in Addressing Significant
Management Challenges

APPENDIX C - Status of FY 2000 Goals and Measures As Reported in the
FY 2000 APR

APPENDIX D - OIG Contacts and Staff Acknowledgements




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)
                                                                    Acronyms

 APP
                    Annual Performance Plan

 APR
                    Annual Performance Report

 DI
                     Disability Insurance

 FY
                     Fiscal Year

 GAO
                    General Accounting Office

 GPRA
                   Government Performance and Results Act

 OIG
                    Office of the Inspector General

 OMB
                    Office of Management and Budget

 SSA
                    Social Security Administration

 SSI
                    Supplemental Security Income





Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)
                                                           Introduction

OBJECTIVE
The objective of the audit was to assess the Fiscal Year (FY) 2000 Annual Performance
Report (APR) as a document that describes in a meaningful way the accomplishments
of the Social Security Administration (SSA). This audit was initiated as part of the Office
of the Inspector General's (OIG) on-going evaluation of the Government Performance
and Results Act (GPRA) of 19931 implementation, and to respond to congressional
interest in GPRA.

BACKGROUND

The intent of GPRA is to improve the performance of Government programs by having
agencies clarify their missions, establish goals and strategies for attaining them,
measure performance, and report progress in achieving established goals. The first
APR required by GPRA was due March 31, 2000, and reported on accomplishments for
FY 1999.

The strategic plan includes a comprehensive mission statement, identifies general goals
and objectives, describes how the agency intends to achieve those goals and identifies
critical external factors that could affect achievement of strategic goals and objectives.
The strategic plan is the starting point for setting annual goals. The Annual
Performance Plan (APP) provides the direct link between the strategic goals and
agency performance. The APP identifies: (1) the annual performance goals the agency
will use to gauge progress toward accomplishing its strategic goals and (2) performance
measures to be used to assess annual progress. An APR, due by March 31 of each
year, compares agency performance with the goals established in its APP, evaluates its
goals for the current year in light of the prior year’s performance, and summarizes the
results of program evaluations completed.

SSA was a pilot agency that developed APPs and APRs prior to full implementation of
GPRA in March 2000. SSA began reporting its accomplishments as part of the
Accountability Report in FY 1995. SSA submitted its first strategic plan under GPRA,
“Keeping the Promise,” in September 1997, and released its second strategic plan,
“Mastering the Challenge,” for FY’s 2000 through 2005 in September 2000. SSA’s first
APP, which defined performance indicators and goals for FY 1999, was completed in
February 1998. SSA released the FY 2000 and 2001 plans in February 1999 and
February 2000, respectively.




1
    Public Law No. 103-62.

Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                         1
GPRA specifies the content of the APR, and implementing guidance is provided by the
Office of Management and Budget (OMB)2. Basically, the APR contains two main parts:
(1) a report on actual performance achieved as compared with the performance goals
established in the APP; and (2) the plans and schedules to achieve any goals that were
not met. Specifically, the APR must:

•	 compare actual performance with planned performance set out in the APP, with at
   least 4 previous years of performance presented;

•	 describe why a projected level of performance was not met, and what steps will be
   taken to meet the goal in the future;

•   contain an evaluation of performance for the current FY;

•	 summarize the findings of any program evaluations completed during the FY, and
   how copies can be obtained;

•	 include relevant budget information consistent with the obligation amounts shown in
   the Budget Appendix for the FY;

•   identify any discontinued goals, while reporting performance;

•   report performance against only revised goals, and not both initial and revised;

•   disclose when information currently not available will be available, and

•	 discuss the completeness and reliability of the performance and financial data
   reported and identify any actions needed to resolve inadequacies in the
   completeness or reliability of the data, if any.

Since 1995, SSA has reported performance data in its Annual Accountability Report
under OMB authority to consolidate various reporting requirements under this report.
SSA released its first APR as required by GPRA in November 1999, which reported on
SSA performance toward the goals established in the FY 1999 APP. The FY 2000 APR
was released in December 2000.

The Reports Consolidation Act of 20003 requires that an agency's Accountability Report
contain a statement by the OIG that summarizes what the OIG considers to be the most
serious management and performance challenges facing the agency and briefly
assesses the progress in addressing those challenges. Since this Act was passed
subsequent to SSA's release of its FY 2000 APR, the OIG's statement was issued as an
addendum to the FY 2000 APR. The OIG's statement contained in Appendix B of this

2
  OMB Circular No. A-11, Part 2, “Preparation and Submission of Strategic Plans, Annual Performance

Plans, and Annual Program Performance Reports,” July 1999.

3
  Public Law No. 106-531.


Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                                      2
report, discusses SSA's progress in addressing major management challenges. This
report addresses SSA's overall performance for all goals reported in the APR.

SCOPE AND METHODOLOGY

To meet our objectives, we analyzed SSA’s FY 2000 APR to assess its adherence to
GPRA requirements and implementing guidance from OMB. The reliability of the
reported performance is not within the scope of this audit, but is being addressed in
individual OIG audits on each of the performance goals. We reviewed reports by the
GAO and The Mercatus Center of George Mason University that analyzed SSA’s FY
1999 APR to assess the extent to which concerns with prior APR's were addressed.

The GAO reviewed the FY 1999 APRs and FY 2001 APPs of 24 agencies (including
SSA) at the request of Senators Fred Thompson and Joseph I. Lieberman, Committee
on Governmental Affairs. The Mercatus Center also reviewed the FY 1999 APR of the
same 24 agencies as part of its on-going research on GPRA implementation.

Supported by our knowledge of SSA operations and GPRA documents, we analyzed
the FY 2000 APR to assess the extent to which it provided a balanced and informative
presentation of SSA’s performance against the goals established in the FY 2000 APP.
Additionally, we reviewed the changes made to the FY 2001 APP to determine whether
the related subsequent APR would be more informative. Specific comments related to
the FY 2001 APP are communicated in a separate report4.

Our field work was conducted at the OIG New York Field Office and SSA Headquarters
in Baltimore, Maryland during January and February 2001. The entity audited was the
Office of Strategic Management within the Office of the Commissioner. Our audit was
performed in accordance with generally accepted government auditing standards, as
applicable to a performance audit.




4
 “Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan”
(A-02-00-10038), June 2001.

Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                            3
                                          Results of Review

SSA’s FY 2000 APR continues to demonstrate a strong commitment by SSA
management to comply with GPRA objectives and reporting requirements. The APR
complies with GPRA, and tracks performance against established goals and generally
offers a rationale for unmet goals and the strategies needed to attain them.

We believe opportunities exist to provide an even more meaningful assessment of
SSA’s performance. These opportunities include more comprehensive and accurate
reporting of overall performance, clearly discussing performance for each measure, and
discussing the effect of unmet measures upon strategic goals. Further, the extent to
which the APR provides meaningful performance information directly depends upon the
quality of the goals and measures established in the related APP. Prior reviews by the
OIG identified actions to make the FY 1999 and 2000 APP more meaningful. Actions
already taken by SSA and agreement to implement OIG recommendations to enhance
the FY 2001 APP should result in more informative future APRs.

APR DISCLOSES THAT MANY OF SSA’S FY 2000 GOALS WERE MET

SSA’s FY 2000 APR is evidence of SSA’s commitment to meet GPRA objectives and
complies with GPRA and OMB reporting requirements. SSA incorporated its GPRA
Performance Report in its FY 2000 Accountability Report, which was released in
December 2000, ahead of the required deadline of March 30, 2001. GPRA
performance is reported in both the Management’s Discussion and Analysis section of
SSA’s Annual Accountability Report, as well as in the separate APR section. The
former provides an informative overall assessment of performance and discloses
performance for key indicators in each of SSA's strategic objectives. The APR contains
a detailed accounting of performance for most measures. Performance is discussed
under each of SSA’s five strategic goals in both sections.

The APR disclosed that SSA has demonstrated an improvement in meeting established
goals and in fact met or exceeded 66 percent of the indicators for which it had an
established goal in FY 2000 or for which data was available to evaluate its measures.
(Refer to Appendix B for a comparison of planned to actual performance.) Additionally,
SSA further reported that 44 percent of the measures included in the APR represented
an improvement over performance achieved in the previous year.

In terms of progress toward its strategic goals, for FY 2000, SSA reported meeting:

•	 93 percent of the goals for which data was available for the strategic goal relating to
   research activity;
•	 46 percent of the goals related to delivering customer responsive, world-class
   service;
•	 69 percent of the goals related to making SSA programs the best in the business
   with zero tolerance for fraud;

Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                            4
•	 71 percent of the goals relating to being an employer that values and invests in each
   employee; and
•	 100 percent of the goals relating to strengthening public understanding of the Social
   Security programs.

OPPORTUNITIES EXIST FOR MORE MEANINGFUL DISCLOSURE

For the most part, the APR clearly discloses the goals and measures that were
established and assesses progress made toward achieving them. As required, an
explanation for why a goal was not met, when applicable, is provided, along with plans
to ensure future achievement. We believe that opportunities exist to further enhance
the usefulness of future APR's. SSA should include: (1) a consistent and clear
identification of overall performance; (2) a more comprehensive discussion of what was
planned and actually achieved for certain measures; and (3) an overall assessment of
how performance achieved furthers each of the strategic goals.

More Comprehensive and Accurate Reporting of Overall Performance Possible

In the APR, SSA summarizes its overall performance and provides a detailed
accounting of each measure. In the summarization of its performance, SSA reports that
66.2 percent of its FY 2000 goals were met and 33.8 percent were not met. However,
these statistics, as disclosed in a footnote, excluded budgeted workload measures and
indicators that did not have a FY 2000 goal or for which data was not available. The
exclusions included 12 budgeted workload measures, representing 13 percent of all
measures, and 14 performance measures, or 15 percent of all measures, for which data
were not currently available. Similarly, when comparing FY 2000 to FY 1999
performance, SSA excluded 26 non-numeric measures. We believe all indicators
should be included when SSA summarizes its performance, whether the indicator is a
budgeted workload, numeric and nonnumeric, or those for which data are unavailable.
Including all indicators in the presentation and calculation of overall performance would
provide a more comprehensive picture of annual performance, as well as of trends from
year to year.

Also, we were unable to reconcile data in SSA’s summary of overall performance
presented in the pie charts entitled Summary of Achievement FY 2000 Performance
Goals and Comparison of FY 2000 Performance to FY 1999 Performance. SSA lacked
documentation to support its conclusion that 66 percent of the FY 2000 measures were
met. Other conclusions reached were also not supported. For instance, the APR
concludes that SSA continues to demonstrate a favorable trend in performance from
year to year. In support of this statement, the APR graphically reports that FY 2000
performance met or surpassed FY 1999 performance for 44 percent of FY 2000
numeric indicators, while falling short in 56 percent. However, the FY 1999 APR
reported that 73 percent of FY 1999 indicators met or surpassed performance in
FY 1998. This data would not indicate a favorable trend. While drafting the APR, SSA
believed there was a favorable trend in performance, but final performance data



Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                        5
demonstrated that such a trend did not exist. The narrative explaining a positive trend
was not adjusted in the final APR to reflect actual performance.

More Specific Information on Performance Needed

SSA generally provides informative data to permit the reader to make an assessment of
performance that did not meet individual goals and to evaluate the actions planned to
ensure accomplishment of the goals in the future. For instance, SSA reports that it did
not meet the goal to prepare a final report on the effects of 1996 Welfare Reform
legislation on children receiving Supplemental Security Income (SSI) who have
disabilities because needed data from other Federal agencies was not available.
However, it does provide a date when the final report will be available. Similarly, SSA
provided a detailed explanation for not meeting the goal to complete an employee
survey, and included a timeframe for achieving the goal.

Performance information for other measures was not as clear or informative. We
believe opportunities exist to provide additional information for some measures that
would allow a better assessment of what was actually accomplished. For instance:

•	 Additional information would provide greater perspective on accomplishment of the
   goal to begin implementation of a national survey of children with disabilities. The
   goal was considered met because a contract was awarded to implement a survey.
   Information on contract requirements, along with timeframes for delivery of products,
   would be helpful in order to assess progress.

•	 The explanation for the goal to "prepare analyses on sources of support for the SSI
   population…as appropriate" is nondescriptive and does not allow a full assessment
   of what analysis was completed.

•	 In explaining why the goal to provide overnight electronic Social Security number
   verification for employees was not met, SSA stated that concerns about privacy and
   security of the information need to be addressed prior to implementation. While this
   provides the reader with a general idea as to why the goal was not met, little or no
   perspective is provided as to what needs to be done in order to achieve this goal,
   nor does SSA provide any timeframes for achievement. Additional information
   would particularly be warranted since this goal also appeared in the FY 1999 APR.

•	 While SSA provided a detailed explanation of why the goal for hearings average
   processing time was not met, much of the discussion did not specifically address the
   cause of not meeting the goal. For instance, more information could have been
   provided about the progress of the Hearings Process Improvement Plan. While,
   SSA notes that productivity of the Administrative Law Judges was lower than
   anticipated, it did not indicate what steps would be taken to address this issue.
   Further, SSA notes the measure includes a combination of SSA and Medicare cases
   and uses this as an explanation for not meeting the overall goal. According to SSA,
   Medicare cases take longer to process. This promotes the argument for separate

Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                         6
    indicators for the two, much like OIG recommended for Old-Age, Survivors and
    Disability Insurance and DI processing5.

•	 SSA has four indicators under output measures for major budgeted workloads
   under the strategic goal to make SSA program management the best in business.
   Three of the four--periodic continuing disability reviews processed, SSI non-disability
   redeterminations, and representative payee actions--were not met, while the fourth--
   annual earnings postings--was exceeded. SSA provided an explanation for not
   meeting one of the goals--representative payee actions--explaining that SSA has
   little control over the number of applications received. For the other two, SSA fails to
   explain why the goals were not met. This is in contrast to a detailed explanation for
   what contributed to exceeding the one goal.

Further, we noted in the audit of the FY 2001 APP6 that these types of output goals
should be avoided because their achievement does not truly reflect SSA performance
since SSA does not control the workflow. While output measures are often appropriate,
representative payee actions are an output measure that conveys little meaning since
varied actions, which can be processed within the context of representative payee
actions, are counted together. For this reason, OIG previously recommended7 that
separate measures be established for discrete representative payee workloads to better
reflect performance. Additionally, SSA has begun an initiative to increase
representative payee accountability, an issue of congressional interest. Accordingly, a
measure could be established for representative payee accountability.

Other opportunities exist to provide a clearer explanation for actual performance or why
performance is not reported. For instance:

•	 SSA provides a detailed explanation as to why the goal of the percent of employers
   rating SSA's overall service as excellent, very good, or good was not met. However,
   only the FY 2000 goal and actual data are provided. The FY 2000 APP provided
   results for FY 1999 (based upon a survey conducted in 1996), which disclosed a
   rating of 92 percent. Including the data for FY 1999 in the APR would have allowed
   for a comparison to the FY 2000 data. The reader is unaware of, and no explanation
   is given for, the drop from a rating of 92 percent in FY 1999 to 82 percent in
   FY 2000.

•	 SSA reported that data was not yet available to measure the goal to increase the
   number of DI adult worker beneficiaries who begin a trial work period. The APR
   notes that this data is collected on a calendar year basis, as opposed to a FY basis,
   however, the FY 2000 APP reported that the data would be captured on a FY basis.

5
  “Performance Measure Review: Review of the Social Security Administration’s FY 2000 Annual

Performance Plan” (A-02-99-03007), November 1999.

6
  “Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan”

(A-02-00-10038), June 2001.

7
  “Performance Measure Review: Reliability of the Data Used to Measure Representative Payee Actions

(A-02-99-01010), March 2000.


Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                                  7
Need for Overall Assessment of Performance upon Strategic Goals

While SSA reports that 66 percent of its goals were met or exceeded, neither an
assessment of problem areas nor the effect of both met and unmet goals upon the
applicable strategic goals is clear. For instance, SSA does not give an overall
assessment of the effect of unmet goals on the strategic goal of delivering customer
responsive, world-class service. SSA did not meet 15 (48 percent), met
13 (42 percent), and did not have the data to determine its performance for
3 (10 percent) of the goals under this strategic goal. SSA explains that since it did not
meet some of its service delivery targets, it used a lessons learned approach and
realized it must continue to improve data collection methods and internal processes, be
more efficient, and otherwise modify strategies so as to be more responsive to
customers' needs and expectations.

We believe further discussion about those goals which were not met did not always
explain how performance would be improved. For instance, in explaining why
customers' rating of service, which was significantly lower than the prior year, did not
meet the goal, SSA notes that its revised methodology for measuring satisfaction
includes a larger segment of customers who are more dissatisfied than those who are
not. SSA noted that the target for FY 2001 may have to be reconsidered. However,
there is no discussion as to how this rating can be improved, or why it may not be
possible to improve.

IMPROVEMENTS IN THE FY 2001 APP AND DRAFT FY 2002 APP SHOULD
RESULT IN MORE MEANINGFUL REPORTING IN FUTURE APRs

The APR’s ability to convey an informative picture of SSA’s performance in meeting its
goals and mission is a product of the quality of the measures established in the APP.
Implementation of GPRA is an evolving process, and both the GAO8 and OIG9 have
recommended actions to increase the usefulness of SSA’s APPs to decisionmakers.
SSA agreed in principle with these recommendations and has taken action to address
many of them in its FY 2000, 2001, and draft FY 2002 APPs. GAO concluded, for
example, that SSA has established more useful goals and measures in the FY 2001
APP relating to strengthening the public’s understanding of Social Security programs
and also to measuring decisional accuracy at the hearings level.

The establishment of more outcome oriented measures that focus on quality and
timeliness in the FY 2001 APP should translate into more informative and accountable
performance reporting in the upcoming FY 2001 APR. OIG had discussed with SSA
8
  “The Results Act: Observations on the Social Security Administration’s Fiscal Year 1999 Performance

Plan” (GAO/HEHS-98-178R), June 1998, “Observations on the Social Security Administration’s Fiscal

Year 2000 Performance Plan” (GAO/HEHS-99-162R), and “Observations on the Social Security

Administration’s Fiscal Year 1999 Performance Report and FY 2001 Performance Plan” (GAO/HEHS-

00126R), June 2000.

9
  “Review of the Social Security Administration’s Fiscal Year 2000 Annual Performance Plan”

(A-02-99-03007), November 1999.


Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                                        8
specific areas where this could be accomplished, and the revised FY 2001 APP
responds in part to OIG’s observations. Additional opportunities to enhance the
usefulness of the FY 2001 and future APPs are discussed in a separate OIG report10.




10
  “Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan”
(A-02-00-10038), June 2001.

Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                             9
                                           Conclusion and
                                         Recommendations
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
goals. SSA’s FY 2000 APR displays a firm commitment by SSA management to
comply with GPRA and provide Congress and the public an objective accounting of
SSA performance. GPRA implementation will continue to be an evolutionary process
as agencies continue developing outcome-based measures and enhance the systems
and processes that produce credible performance data. Since the APR reflects the
goals and measures set in the related FY 2000 APP, actions taken by SSA to improve
the usefulness of its FY 2001 APP, and those recommended by OIG for future APPs,
should result in more informative APRs.

To enhance the value of future APRs, we recommend that SSA:

1. Consistently and clearly present overall performance.

2. 	 Provide a clear and informative discussion for each measure to allow a complete
     assessment of the extent performance met established goals.

3. Discuss the effect of unmet annual goals upon strategic goals.

AGENCY COMMENTS

SSA agreed in principle with the three recommendations we made. SSA noted that it
will continue to strive to enhance the discussion in the APR of actual performance and
its ramifications on goal attainment and future strategies. The full text of SSA’s
comments is included in Appendix A.

OIG RESPONSE

We are pleased that SSA agreed with our recommendations and believe that
implementation of the recommendations will lead to an APR which is a more meaningful
document by which SSA performance can be assessed.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                        10
                                     Appendices





Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)
                                                                    Appendix A

Agency Comments





Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)
                                       SOCIAL.        SECURITY


.MEMORANDUM



           August   29,   2bol                                                 Refer To: SlJ-3

To:




Subject:   Office of the Inspector General (OIG) Draft Report," Perfonnance Measure Review: Social
           Security Administration's Fiscal Year 2000 Annual Performance Report" (A-02-0 1-11008}­
           INFORMA TION



           We appreciateolals efforts in conducting the subjectreview. Our comments on the report's
           content and recommendations are attached.

           Pleaselet us know if we may be offurther assistance.Staff questionsmay be referred to
           Robert Berzanski on extension 5-2675.

           Attachment:
           SSA Comments
COMMENTS          ON   THE    OFFICE     OF THE   INSPECTOR     GENERAL    (OIG)   D
REPORT.      "PERFORMANCE              MEASURE    REVIEW:     SOCIAL   SECURI


(&-03-QO-I0022)


Thank you for the opportunity to review and provide comments on the subject draft
report.

We appreciate your acknowledgement that the Social Security Administration's CSSA's)
Fiscal Year CFY) 2000 Annual Performance Report CAPR)displays a firm commitment
by management to comply with the Government Performanceand Results Act CGPRA)
and provide Congress and the public an objective accounting of our performance. GPRA
implementation Will continue to be an evolutionary processas we continue to develop
outcome-basedmeasuresand enhancethe systemsand processesthat produce credible
performance data. SSA has already addressedcertain ~eaknessesthrough strengthened.
annual performance plans. Following are our comments.

Recommendations         1-3


I. Consistently and clearly summarize overall performance.

2. Provide a clear and infomlative discussion for each measure in order to allow a
   complete assessment .of the extent perfomlance met established goals.

3. Discuss the effect ofunrnet annual performance goals upon strategic goals.

Comment


SSA agreesin principle with all of GIG's recommendationsand will continue to strive to
enhanceour discussions of actual perfom1anceand its ramifications on goal attainment
and future strategies in the APR. SSA is currently looking at possible ways to optimally
balance currency and completenessof perfom1ancedata and explanatory infom1ation.
Our intent is to present a complete and timely picture of SSA's past perfonnance and
future remediations to Congressand the public.
                                                                    Appendix B
    The Office of the Inspector General’s Assessment

         of the Social Security Administration’s

    Progress in Addressing Significant Management

                        Challenges





Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)
January 17, 2001


The Honorable Kenneth S. Apfel
Commissioner of Social Security

Dear Mr. Apfel:

In November 2000, the President signed the Reports Consolidation Act of 2000, which
requires Inspectors General to provide a summary and assessment of the most serious
management and performance challenges facing the agencies and the agencies’
progress in addressing them. This document, which is an amendment to the “Social
Security Performance and Accountability Report for Fiscal Year 2000,” responds to
these new requirements.

In December 1999, we identified the following 10 significant management issues facing
the Social Security Administration (SSA) for Fiscal Year (FY) 2000:

SOLVENCY
                              SYSTEMS SECURITY & CONTROLS

PROGRAM COMPLEXITY
                    FRAUD RISK

GPRA
                                  DISABILITY REDESIGN

EARNINGS SUSPENSE FILE
                SERVICE TO THE PUBLIC

ENUMERATION
                           IDENTITY THEFT

During FY 2000, SSA took action to address these issues, many of which are of a long-
term nature and do not lend themselves to quick fixes. Our assessment of the status of
these 10 management challenges is enclosed.




Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)         B-1
We recently issued a new list of management challenges facing SSA for FY 2001 and
will provide a summary assessment on these issues in the FY 2001 “Social Security
Performance and Accountability Report.”

                                                  Sincerely,




                                                  James G. Huse, Jr.
                                                  Inspector General of Social Security

Enclosure




Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)               B-2
              Office of the Inspector General’s Assessment of

      the Social Security Administration’s Progress in Addressing

          Significant Management and Performance Challenges

                            Identified in December 1999




                                      SOLVENCY
Both the Office of the Inspector General (OIG) and SSA agreed that SOLVENCY of the
Social Security Program remains a major concern. Under current estimates,
expenditures from the Trust Fund will exceed tax receipts in 2015, and tax receipts will
meet approximately 72 percent of scheduled benefit payments after 2037. Ultimate
action rests with the President and Congress to continue bi-partisan reform efforts to
find a solution to this important national issue. However, SSA needs to be involved in
these discussions and to provide valuable information to support these efforts. In
FY 2000, SSA had established goals to conduct research in an effort to identify areas in
which policy changes may be needed to strengthen the programs and to help
policymakers address program issues. Similar goals to produce studies have been
established for FY 2001, including a goal to prepare analyses on the distributional and
fiscal effects of solvency proposals. Such analysis will provide decisionmakers the
information necessary to assess the impacts of changes to the programs on various
populations. The value of which will depend upon SSA’s success in strengthening its
modeling capability to project income into future years and to analyze the distributional
effects of alternative policies.

                    SYSTEMS SECURITY AND CONTROLS

While SSA successfully transitioned to Year 2000, SYSTEMS SECURITY AND
CONTROLS remain a management challenge. It implemented recommendations we
made to ensure SSA’s ability to respond effectively to a disruption in business
operations, and it has made notable progress to strengthen and improve controls over
the protection of information and separation of duties. However, SSA still needs to
complete and test disaster recovery plans for non-headquarter locations. During
FY 2000, in response to Presidential Decision Directive 63 and recommendations from
our audit work, SSA addressed information protection issues. It has: (1) issued
security policies in accordance with Federal requirements; (2) implemented network
monitoring and a process for monitoring inappropriate access to SSA mainframe
computer systems; (3) strengthened physical access controls at the National Computer
Center and procedures for removing systems access when no longer needed;




Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)            B-3
(4) reduced vulnerabilities in the mainframe operating system; and (5) finalized
accreditation and certification of systems. Despite these accomplishments, a weakness
in SSA’s controls to protect its sensitive information is a reportable condition within the
FY 2000 Financial Statement Audit. SSA’s security framework for its network and
distributed systems is weak or incomplete. While SSA has documented security goals
and objectives for network and distributed systems, it needs to assess risk in those
areas, issue technical guidance to help achieve the security goals and objectives, and
more effectively monitor inappropriate system activity in non-headquarter locations.
Congress recently passed the Government Information Security Reform Act that
requires Federal agencies to examine the adequacy and effectiveness of information
security policies, procedures, and practices in plans and reports relating to information
resources management, among other issues. At this point in time, we have concerns
as to whether SSA would be in compliance with the Act.

                             PROGRAM COMPLEXITY

PROGRAM COMPLEXITY of the Supplemental Security Income (SSI) program and the
disability claims process presents a challenge to SSA’s administration. SSI eligibility
partly depends upon complicated determinations of self-reported income and available
resources. In October 1998, SSA issued its first management report on the SSI
program that detailed plans to improve payment accuracy, increase continuing disability
reviews (CDR), combat fraud, and collect overpayments. We have reported about
improper and inaccurate payments in the SSI program and made recommendations to
simplify some of processes within it. During FY 2000, SSA implemented several of its
planned initiatives. As a result, SSA reported that it met or exceeded its FY 2000 goals
for CDRs, SSI dollars reported from investigative activities, and for SSI debt collected.
Previous OIG work has demonstrated that weaknesses exist in the data system used to
measure these goals. Information about SSI payment accuracy for FY 2000 will not be
available until April 2001. SSA has also implemented initiatives to improve service
delivery for disability claimants. One of these initiatives has focused on achieving
consistent decisions through consistent application of law.

                                      FRAUD RISK

FRAUD RISK, involving fraudulent schemes to obtain Social Security numbers (SSN),
to receive retirement, disability and SSI benefits, and to handle other beneficiaries
benefits, is a major concern. Fraud risk is especially problematic in SSI because of the
dependence upon recipients self-reporting of changes in their income and personal
circumstances that affect benefit eligibility and amounts. SSA is addressing fraud risk
on numerous fronts that both seek to prevent and detect fraud, including CDRs,
improvements in annual earnings postings and records maintenance, improvements to
debt collection, enhanced representative payee monitoring, and expanding computer
matches to detect unreported resources. In FY 2000, SSA continued to enhance
existing computer matches and initiated new ones, such as access to State records on-


Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)              B-4
line and access to Office of Child Support Enforcement databases to detect unreported
income. SSA initiated in FY 2000, an enhanced program to conduct on-site and
financial reviews of representative payees. In addition, the OIG began to audit
organizational payees as needed in response to certain “trigger” events, such as third-
party reports of misuse; complaints from vendors of failure to receive payment, or failure
to complete the annual accountability report. The OIG continues to play a significant
role in SSA’s efforts to combat fraud. The Cooperative Disability Investigation teams,
led by OI Special Agents, have been very effective in detecting and preventing SSI and
disability fraud. During FY 1999 and 2000, the goals for both investigations conducted
and criminal convictions, were exceeded as was SSI and Old-Age, Survivors, and
Disability Insurance dollar amounts reported from investigative activities. The OIG is
currently reviewing the accuracy of these performance measures.

           GOVERNMENT PERFORMANCE AND RESULTS ACT

OIG reviews of SSA’s FY 1999 and 2000 Annual Performance Plans (APP) and its
FY 1999 Annual Performance Report concluded that SSA demonstrates a commitment
to GPRA and has improved the usefulness of its APPs. Recognizing the evolving
nature of GPRA reporting, we believe that SSA can make future APP’s more useful to
decisionmakers by continuing to develop more outcome-based measures and
developing goals for those management challenges for which corrective action is
measurable. For instance, SSA has no goals related to management of the Earnings
Suspense File, which has continued to increase. The usefulness of any GPRA
reporting is dependent upon the reliability and validity of the information agencies use to
report their performance toward meeting goals. SSA recognizes that the OIG plays a
vital role in assuring that the systems used to produce performance data are reliable.
Consequently, the OIG initiated a 3-year effort to review all SSA’s performance
measures by FY 2001. To date, OIG has completed 18 reviews that included
24 measures, and made recommendations to address weaknesses in data sources and
inaccurate measurements that impact the reliability of the performance data. SSA has
responded favorably to most of these recommendations. As Congress increasingly
relies upon GPRA reporting to make budget decisions, SSA will have to ensure that
resource use is tied to performance, and that customer’s expectations and performance
goals recognize that quality must also be maintained in meeting service level objectives.

                               DISABILITY REDESIGN

The disability claims process has presented challenges by its complexity and SSA
has been involved in a multiyear effort to improve performance in initial and appeal
disability claims. Process Unification is the overarching theme for all DISABILITY
REDESIGN initiatives, which will ensure fairness and consistency during the
hearing process. For instance, in FY 2000, SSA awarded a contract to design a
methodology to validate a single disability medical listing and has as a goal in



Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)              B-5
FY 2001 to prepare a preliminary report on the development of the validation
methodology. SSA still has to complete updating the mental disorders list. SSA
also issued a report that identifies areas where improvement is needed in the
disability adjudication process, which is a major part of the Disability Redesign
initiative. This initiative involves achieving consistent application of law and
regulation to make the correct determination as early in the claim process as
possible, and to expedite the process through streamlining it. After several years of
study, SSA began pilot programs in 10 States in FY 2000 that provide greater
authority to the disability examiner, ensure appropriate case development, increase
claimant interaction, and eliminate the reconsideration step at the Disability
Determination Services offices. A related effort is the Hearings Process
Improvement initiative. Pilots of this initiative were implemented in 37 hearing
offices in FY 2000, and the remaining offices implemented the new process in
October and November of 2000. OIG is scheduled to assess the success of the
pilot initiatives in FY 2001. In addition, in FY 1999, SSA began implementation of
its Electronic Disability (eDib) System that is the Agency’s technological approach to
automating the disability claims process. The OIG has been periodically monitoring
the Electronic Service Delivery aspects of eDib through various SSA steering
committees. We plan to conduct a survey of the eDib system development to
assess the system for potential vulnerabilities and reporting on areas of concern.
Also, as part of our continual monitoring of the eDib system we will evaluate
development of the system.

                           EARNINGS SUSPENSE FILE

The EARNINGS SUSPENSE FILE (ESF) is a file of wage items and does not represent
a “fund” of money. The file consists of wage items that failed to match SSA’s name and
SSN validation criteria. From 1937 to 1998, the ESF accumulated over 219 million
W-2s and over $291 billion in wages, with 7 million W-2s and over $31 billion in wages
added in 1998 alone. SSA has developed a Tactical Plan containing an overall strategy
and several individual projects designed to reduce the rate of growth and size of the
Suspense File. The changes called for in the plan are long-term, however, and several
factors hinder the efforts with the most potential to reduce the Suspense File’s size and
growth. Our review of SSA's ESF activities disclosed that despite numerous efforts, the
volume of suspended wages continues to increase. During FY 2000, SSA was
finalizing projects related to providing 1) error feedback to employers on new hire
reports and 2) overnight electronic name/Social Security number verification services to
employers. SSA also recently brought in an outside contractor to review the content of
the ESF and make recommendations on purge/archive criteria to be used to delete
inactive or unidentifiable records from the suspense file. These efforts can assist in
reducing both new additions to the ESF as well as the overall size of the existing ESF.
Other efforts need to move forward if SSA wants to demonstrate its commitment to
reducing the ESF. For example, SSA has conducted a number of meetings with the
Internal Revenue Service (IRS) to ensure that penalties are assessed on employers
who submit bad wage data, but as of this writing, we are not aware of any penalties that


Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)               B-6
have been assessed on any of these employers. In addition, SSA recently decided to
end one of its initiatives where the Agency rejected electronic media from employers if
more than 50 percent of the wage reports were in error in the hopes that a more
accurate tape would be resubmitted. The lack of IRS penalties, as well as the
elimination of the electronic media error threshold, highlights some of the problems
facing SSA as it attempts to deal with an ever-increasing suspense file. Since we have
linked SSN misuse and identity theft to the Suspense File, we believe that a timely
resolution to this problem is very important.

                             SERVICE TO THE PUBLIC

SSA is committed to providing world-class SERVICE TO THE PUBLIC but it continues
to be a challenge as customers’ expectations increase and SSA faces downsizing and
increasing workloads. A significant amount of SSA’s workforce is expected to retire at
the same time that SSA expects greatly increased retirement and disability workloads.
Additional pressure on SSA’s ability to meet customer expectations is created by
budgetary, hiring, and technological limitations. In fact, in FY 2000, SSA failed to meet
some of its goals that directly measure customer satisfaction. For instance, goals for
the percent of core business customers rating SSA’s service as excellent, very good, or
good, as well as for the percent of employers rating SSA’s overall service as excellent,
very good, or good were not met. Further, for FY 2001, SSA lowered its goals for the
number of initial disability claims processed and the percent of 800-number callers
getting through on their first attempt, as well as within 5 minutes, due to reduced
funding. While SSA is seeking alternative methods to provide service delivery options
to the public, obstacles to client authentication to ensure confidentiality of information for
on-line services have presented problems. SSA has updated its estimate on when it will
be able to receive secure public inquiries on-line from FY 2000 to the end of FY 2002.
OIG will continue to monitor the Agency’s efforts to ensure that there is no trade-off
between fraud prevention and customer service.

                                    ENUMERATION

Through its ENUMERATION process, SSA issued over 17 million original and
replacement SSN cards in FY 1999 to U.S. citizens and aliens. Our audit and
investigative work show that some SSN applications are processed based on false
documentation. We commend SSA for taking initiatives aimed at preventing the
issuance of a fraudulent SSN, especially the development of software to interrupt the
issuance of SSN cards in fraud-prone scenarios. However, we believe that SSA still
needs to improve controls over the enumeration process. We previously recommended
that SSA propose legislation that disqualifies individuals who improperly attain SSNs
from receiving work credits for periods that they were not authorized to work in the
United States. However, SSA believes that this proposal would be too difficult to
administer. During a National Anti-Fraud Committee meeting in June 2000, we led
discussions with management concerning the possibility of requiring individuals to show


Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)                B-7
picture identification when doing business with SSA. The Agency believes this would
go against the core philosophy that created Social Security. We continue to believe that
the Agency needs to make preventative action a major priority, since fraudulent SSN
activity will increase as the SSN becomes used more and more as the universal
identifier and individuals seek to hide their earnings or to work illegally.

                                   IDENTITY THEFT

IDENTITY THEFT, when someone uses another’s personal information without that
individual’s knowledge to commit a crime, became a crime itself when Congress passed
the Identity Theft and Prevention Act. False identities are used to defraud SSA. For
instance, unscrupulous individuals can assume the identity of another person, alive or
dead, and work under the stolen SSN, while receiving disability benefits under their own
SSN. Our investigative work shows that this crime is on the upswing. SSA has
recognized the need to reduce its vulnerability to identity theft and has begun to focus
more diligently on its prevention methods. To that end, SSA has developed initiatives
aimed at detecting fraudulent birth certificates and fraudulent immigration documents.
The Agency has also identified fraud-prone situations where identity theft is likely to
occur. Additionally, the Agency is designing software to interrupt the issuance of SSN
cards in certain scenarios that have been determined to be fraud-prone. SSA will be
provided with an important tool in the fight against identify theft if Congress passes
legislation that restricts the uses of SSNs. SSA continues to face the difficult challenge
of balancing anti-fraud measures and achieving its goal of world-class service.




Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-00-11008)             B-8
                                                                                              Appendix C

        Status of FY 2000 Goals and Measures As
       Reported in the FY 2000 Annual Performance
                          Report

Strategic Goal: To promote valued, strong 14 out of 16 goals achieved
and responsive social security programs and 1 goal not achieved
                                            Data not available for 1 goal
conduct effective policy development,
research and program evaluation.
                         INDICATOR                                           GOAL1                    STATUS
1      Identification, development and utilization of             Identify and define                 Achieved
       appropriate barometer measures for                         barometer measures to be
       assessing the effectiveness of OASDI                       used.
       programs.




1
  The Office of Management and Budget’s (OMB) Government Performance and Results Act (GPRA) guidance

specifies that the annual performance report compare the target level of performance for each goal as established

in the final annual performance plan, or the revised final plan, whichever is the most current. These targets may be

established prior to the finalization of agencies’ operating plans. Although agencies may find that workload

measures have to be adjusted to be consistent with resources allocated in the operating plan, OMB has no

provision to compare performance against operating plan targets. In FY 2000, SSA adjusted the targets for

workload indicators 16, 18, 19, 20, 21, 23 and 45. Actual performance met or exceeded the revised targets for

indicators 16, 18, 23, and 45.



    Review of SSA’s Fiscal Year 2000 Annual Performance Report (A-02-01-11008)                             C-1

2     Preparation of analyses and reports on the          Prepare analyses and          Achieved
      effect of OASDI programs on different               reports on the following
      populations in order to identify areas for policy   topics:
      change and develop options as appropriate.          •The effect of OASDI
                                                          programs on women.
                                                          •The effect of OASDI
                                                          programs on minorities.
                                                          •The effect of OASDI
                                                          programs on low-wage
                                                          workers.
                                                          • Study on characteristics
                                                          of people receiving DI
                                                          benefits.
                                                          •Analysis on the effect of
                                                          changes in Social Security
                                                          retirement benefits on the
                                                          DI program.




3     Preparation of analyses and reports on              Prepare analyses on the       Achieved
      demographic, economic and international             following topics:
      trends and their effects on OASDI programs          • Trends in marriage,
      in order to anticipate the need for policy          divorce and re-marriage
      change and develop options as appropriate.          and effects on the Social
                                                          Security programs.
                                                          • Immigration and Social
                                                          Security.
                                                          • Lifetime redistributional
                                                          effects of Social Security
                                                          cohorts.
                                                          • International retirement
                                                          policy reform
4     Preparation of research and policy analyses         FY 2000 Goal: Prepare         Achieved
      necessary to assist the Administration and          analyses on the
      Congress in developing proposals to                 distributional and fiscal
      strengthen and enhance the solvency of              effects of solvency
      OASDI programs.                                     proposals developed by
                                                          the Administration,
                                                          Congress and other
                                                          policymakers.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                          C-2
5     Identification, development and utilization of    Identify and define          Achieved
      appropriate barometer measures for                barometer measures to be
      assessing the effectiveness of the SSI            used.
      program.
6     Expansion and acquisition of data on the          Link survey data with        Achieved
      characteristics of SSI populations in order to    programmatic data.
      improve capacity to provide analyses, identify
      areas for policy change, and develop options
      as appropriate.
7     Preparation of a report and completion of data   1: Prepare final report on    Not
      collection on the SSI Childhood Disability       the effects of 1996 welfare   Achieved
      Survey in order to assess the impact of          reform legislation on SSI
      welfare reform, identify areas of potential      children with disabilities.
      policy change and develop options as             2: Begin implementation of    Achieved
      appropriate.                                     a national survey of
                                                       children with disabilities.
8     Preparation of analyses on sources of support Prepare the analysis.            Achieved
      for the SSI population in order to identify
      areas for better coordination with other social
      benefits and develop options as appropriate.
9     Increase the number of DI adult worker           10-percent increase in the    Not
      beneficiaries who begin a trial work period.     number of DI beneficiaries    Available.
                                                       beginning trial work
                                                       periods.
10    Increase in the number of SSI disabled           10-percent increase           25,772
      beneficiaries, aged 18-64, participating in      (21,744) in the number of     Achieved
      1619(a) status.                                  SSI disabled beneficiaries
                                                       aged 18-64 participating in
                                                       1619(a) status.
11    Preparation of a research design to develop      Award a contract to design    Achieved
      techniques for validating medical listings.      a methodology to validate
                                                       a single listing.
12    Preparation of reports on results of the         Complete pilot study.         Achieved
      Disability Evaluation Study in order to identify
      potentially eligible disabled populations,
      interventions that enable continued work effort
      among the disabled and guide changes to the
      disability decision process.
13    Creation of a Disability Research Institute.     Award contract to establish   Achieved
                                                       the Disability Research
                                                       Institute.
14    Percent of customers assigning a high rating     Develop customer survey       Achieved
      to the quality of SSA’s research and analysis    and data collection
      products in terms of accuracy, reliability,      mechanism.
      comprehensiveness and responsiveness.



Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                        C-3
15    Issuance of periodically updated research and Issue the initial research   Achieved
      policy agenda.                                and policy agenda.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                   C-4
Strategic Goal: To deliver customer                     13 out of 31 goals achieved
responsive, world-class service.                        15 goals not achieved
                                                        Data not available for 3 goals
16    RSI claims processed                                      3,134,800              3,404,938
                                                                                        Achieved
17    SSI Aged claims processed                                    144,200               153,474
                                                                                        Achieved
18    Initial disability claims processed                       2,144,000              2,035,627
                                                                                   Not Achieved
19    Disability claims pending (initial)                          408,000               535,407
                                                                                   Not Achieved
20    Hearings processed                                           622,400               539,426
                                                                                   Not Achieved
21    Hearings pending                                             209,000               346,756
                                                                                   Not Achieved
22    Social Security number requests processed                16,300,000            17,128,073
                                                                                        Achieved
23    800 Number calls handled                                 60,000,000            59,500,000
                                                                                   Not Achieved
24    Percent of SSA’s core business customers          88%                  82%
      rating SSA’s overall service as “excellent,”                           Not Achieved
      “very good” or “good”
25    Percent of SSA’s core business customers          37%                 29%
      rating SSA’s overall service as “excellent”                           Not Achieved
26    Percent of SSA’s core business customers          82%                 Not Available
      rating the clarity of SSA’s notices as
      “excellent,” “very good” or “good”
27    Percent of employers rating SSA’s overall         93%                 82%
      service as “excellent,” “very good” or “good”                         Not Achieved
28    Percent of employers rating SSA’s overall         13%                 6%
      service as “excellent”                                                Not Achieved
29    Percent of callers who successfully access        92%                 92.9%
      the 800-number within 5 minutes of their first                        Achieved
      call
30    Percent of callers who get through to the 800-    86%                 88.4%
      number on their first attempt                                         Achieved
31    Percent of 800-number calls handled               95%                 Not Available
      accurately - payment accuracy
32    Percent of 800-number calls handled               90%                 Not Available
      accurately - service accuracy
33    Percent of public with an appointment waiting     85%                 84.2%
      10 minutes or less                                                    Not Achieved
34    Percent of public without an appointment          70%                 73.2%
      waiting 30 minutes or less                                            Achieved



Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                           C-5
35    New or expanded services available over the       Take retirement      Achieved
      phone                                             or survivors
                                                        claims
                                                        immediately over
                                                        the telephone, or
                                                        in person, as long
                                                        as the applicant
                                                        has all the
                                                        information
                                                        needed.
36    New or expanded services available                1: Provide           1: Not Achieved
      electronically                                    overnight
                                                        electronic Social
                                                        Security number
                                                        verification for
                                                        employers.
                                                        2: Give employers    2: Achieved
                                                        the option to
                                                        transmit wage
                                                        reports to SSA
                                                        electronically
                                                        using a personal
                                                        computer or high-
                                                        speed data
                                                        transmission
                                                        lines.
                                                        3: Establish         3: Not Achieved
                                                        capacity to
                                                        receive secure,
                                                        online public
                                                        inquiries about
                                                        claims and
                                                        benefits.
                                                        4: Establish the     4: Not Achieved
                                                        capacity for
                                                        attorneys to
                                                        check hearings
                                                        schedules over
                                                        the Internet.
37    Number of customers accessing Social              15.8                 13.2
      Security Online (in millions)                                          Not Achieved
38    Percent increase in the number of Social      50%                      55%
      Security Statement inquiries processed on the                          Achieved
      Internet




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                           C-6
39    Initial disability claims average processing      115         102
      time (days)                                                   Achieved
40    Hearings average processing time (days)           257         297
                                                                    Not Achieved
41    Percent of OASI claims processed by the time 83%              86.9%
      the first regular payment is due or within                    Achieved
      14 days from effective filing date, if later
42    Percent of initial SSI Aged claims processed 66%              74.4%
      within 14 days of filing date                                 Achieved
43    Percent of original and replacement SSN      97%              98.9%
      cards issued within 5 days of receiving all                   Achieved
      necessary documentation




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                  C-7
Strategic Goal: To make SSA program                            9 out of 20 goals achieved
management the best in business, with zero                     4 goals not achieved
                                                               Data not available for 7 goals
tolerance for fraud and abuse.
44     Periodic CDRs processed                                 1,882,700               1,836,510
                                                                                       Not Achieved2
45     SSI non-Disability Redeterminations                     2,238,550               2,182,027
                                                                                       Not Achieved
46     Annual Earnings Postings                                258,900,000             277,145,696
                                                                                       Achieved
47     Representative Payee actions                            6,990,600               6,151,264
                                                                                       Not Achieved
48     Dollar accuracy of OASI payment outlays,                99.8%                   Not Available
       Percent without overpayments
49     Dollar accuracy of OASI payment outlays,                99.8%                   Not Available
       Percent without underpayments
50     DDS decisional accuracy rate                            97%                     Not Available
51     Office of Hearings and Appeals (OHA)                    87%                     Not Available
       decisional accuracy rate
52     Dollar accuracy of SSI payment outlays,                 95%                     Not Available
       Percent without overpayments
53     Dollar accuracy of SSI payment outlays,                 98.8%                   Not Available
       Percent without underpayments
54     Percent of SSNs issued accurately                       99.8%                   Not Available
55     Percent of multi-year CDR plan completed                63%                     68.8% 3
                                                                                       Achieved
56     Percent of wage items posted to individuals’            98%                     97.6%
       records by September 30                                                         Not Achieved
57     Percent of earnings posted correctly                    99%                     99%
                                                                                       Achieved
58     Number of investigations conducted (i.e.                7,600                   8,051
       closed)                                                                         Achieved
59     OASDI dollar amounts reported from                      $40 million             $46 million
       investigative activities                                                        Achieved
60     SSI dollar amounts reported from                        $80 million             $128 million
       investigative activities                                                        Achieved
61     Number of criminal convictions                          1,800                   2,604
                                                                                       Achieved
62     OASDI debt collected                                    $1,274.9 million        $1,343.5 million
                                                                                       Achieved
63     SSI debt collected                                      $684.8 million          $701.6 million
                                                                                       Achieved
2
  Planned performance for this indicator was changed in May 2000 to 1,804,000, with actual performance

exceeding the revised planned performance.

3
  Actual performance based upon the May 2000 revision would have been 67.2 percent.



Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                                         C-8
Strategic Goal: To be an employer that                   10 out of 16 goals achieved
values and invests in each employee.                     4 goals not achieved
                                                         Data not available for 2 goals
64   Percent of offices with access to Interactive       100%                 98.8%
     Video Training/Interactive Distance Learning                             Not Achieved
     (IVT/IDL)
65   Formal management development programs              1: Complete        Achieved
     implemented                                         Senior Executive
                                                         Service (SES)
                                                         Candidate
                                                         Development
                                                         Program
                                                         2: Continue        Achieved
                                                         Advanced
                                                         Leadership
                                                         Program (ALP)
                                                         3: Continue        Achieved
                                                         Leadership
                                                         Development
                                                         Program (LDP)
66   Percent of managerial staff participating in        33 1/3%            33 1/3% Achieved
     management/leadership development
     experiences
67   Percent of employees reporting they are             75%                Not Available
     satisfied with the level of security in their
     facility
68   Percent of environmental air quality surveys        20%                20.6%
     completed and percent of the corrective                                Achieved
     actions taken when called for - Facilities
     surveyed
69   Percent of environmental air quality surveys        75%                76.6%
     completed and percent of the corrective                                Achieved
     actions taken when called for - Corrective
     actions taken
70   Number of facilities having water quality testing   600                291
     and percent of corrective actions taken when                           Not Achieved
     called for – Facilities surveyed
71   Number of facilities having water quality testing   100%               100%
     and percent of corrective actions taken when                           Achieved
     called for – Corrective actions taken
72   Number of relocated offices having security         150                152
     surveys and percent of accepted security                               Achieved
     recommendations implemented - Offices
     surveyed



Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                            C-9
73   Number of relocated offices having security        85%                 Not Available
     surveys and percent of accepted security
     recommendations implemented – Accepted
     recommendations taken
74   Create Agency change strategy                      Develop and         Achieved
                                                        implement
                                                        strategy
75   Complete Agency plan for transitioning to the      1: Implement        1: Not Achieved
     workforce of the future                            competency-
                                                        based models for
                                                        recruitment and
                                                        training needs
                                                        assessment
                                                        2: Complete         2: Not Achieved
                                                        employee survey
                                                        3: Publish an       3: Achieved
                                                        Agency transition
                                                        plan




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                           C-10
Strategic Goal: To strengthen public                    1 out of 2 goals achieved
understanding of the social security                    data not available for 1 goal
programs.
76   Percent of public who are knowledgeable            65%                  Not Available
     about Social Security programs
77   Percent of individuals issued Social Security      100%                 100%
     Statements as required by law                                           Achieved
Selected Indicator Performance for                              3 out of 5 goals achieved
FY 1999: These performance indicators are                         2 goals not achieved
found in the FY 1999 APP. However,
because actual, full-year data was not
available when SSA’s FY 1999 APR was
published, they are being reported as
follows. The numbers assigned to each
indicator correlate to the number assigned in
the FY 1999 APR.
36   Percent of wage items posted to individuals’       98%                  92.9%
     records by September 30                                                 Not Achieved
38   Dollar accuracy of OASI payment outlays            Percent without      99.8% Achieved
                                                        overpayments
                                                        99.8%

                                                        Percent without      99.9% Achieved
                                                        underpayments
                                                        99.8%
39   DDS decisional accuracy                            97%                  96.7%
                                                                             Not Achieved
40   Percent of SSNs issued accurately                  99.8%                99.8%
                                                                             Achieved




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)                            C-11
                                                                                Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Frederick Nordhoff, Director, Financial Management and Performance Monitoring Audit
   Division, (410) 966-6676

   Timothy Nee, Deputy Director, (212) 264-5295

Acknowledgments
In addition to those named above:

   John Harrison, Senior Auditor

   Denise Ramirez, Program Analyst

   Annette DeRito, Program Analyst


For additional copies of this report, please contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-5998. Refer to Common Identification Number A-02-01-11008.




Review of SSA’s FY 2000 Annual Performance Report (A-02-01-11008)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                      Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief
Financial Officers Act of1990, assess whether SSA’s financial statements fairly present the
Agency’s financial position, results of operations, and cash flow. Performance audits review the
economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs.
OEO supports the OIG components by providing information resources management; systems
security; and the coordination of budget, procurement, telecommunications, facilities and
equipment, and human resources. In addition, this Office coordinates and is responsible for the
OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. The quality assurance
division performs internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from the Agency. This division also conducts
employee investigations within OIG. The public affairs team communicates OIG’s planned and
current activities and the results to the Commissioner and Congress, as well as other entities.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
